APPENDIX
Decision of the court of appeals
United States v. Coston, 964 F.3d 289 (4th Cir. 2020). . . . . . . . . . . . . . . . . . 1a

U.S. v. COSTON
Cite as 964 F.3d 289 (4th Cir. 2020)

termine whether there is evidence to support a finding that Bolden’s possession of a
firearm facilitated or had the potential to
facilitate his possession of cocaine, consistent with cases like Jenkins. But on this
record – with no district court finding as to
facilitation, and no indication of why the
district court might have thought there
was facilitation here – we are unable to
review the application of § 2K2.1(b)(6)(B)
and must instead vacate the defendant’s
sentence and remand for resentencing. See
Wilkinson, 590 F.3d at 269–70; United
States v. Briggs, 919 F.3d 1030, 1032–33
(7th Cir. 2019) (vacating sentence and remanding for resentencing where district
court failed to make findings ‘‘about how
[the defendant’s] felony cocaine possession
was connected to his firearms’’).
III.
For the reasons stated, we vacate Bolden’s sentence and remand for resentencing consistent with this opinion.
VACATED AND REMANDED *

,
UNITED STATES of America,
Plaintiff - Appellee,

289

Rebecca Beach Smith, Senior District
Judge, revoked defendant’s supervised release and imposed above-Guidelines revocation sentence. Defendant appealed.
Holdings: The Court of Appeals, Floyd,
Circuit Judge, held that:
(1) district court did not commit plain error in revoking defendant’s supervised
release pursuant to mandatory revocation provision, and
(2) defendant’s above-Guidelines 36-month
revocation sentence was not plainly unreasonable.
Affirmed.
1. Criminal Law O1139
Court of Appeals reviews statute’s
constitutionality de novo.
2. Criminal Law O1030(1)
Within plain error review, defendant
must establish (1) error, (2) that was plain,
and (3) that affected his substantial rights,
and if he satisfies those factors, Court of
Appeals may exercise its discretion to correct error if it seriously affects fairness,
integrity, or public reputation of judicial
proceedings.
3. Criminal Law O1030(1)

v.
Calvin Teko COSTON, Defendant Appellant.
No. 19-4242
United States Court of Appeals,
Fourth Circuit.

Error is ‘‘plain’’ if it is clear or obvious
by time of appeal, either because of settled
Supreme Court or circuit law or, in absence of such authority, decisions by other
circuit courts of appeals.
See publication Words and Phrases
for other judicial constructions and
definitions.

Submitted: June 1, 2020
Decided: July 13, 2020
Background: The United States District
Court for the Eastern District of Virginia,
* This opinion is published without oral argument pursuant to this Court’s Standing Order
20-01, http://www.ca4.uscourts.gov/docs/pdfs/

4. Criminal Law O1042.3(4)
District court did not commit plain
error in revoking defendant’s supervised
amendedstandingorder20-01.pdf
Apr. 7, 2020).

App. 1a

(amended

290

964 FEDERAL REPORTER, 3d SERIES

release pursuant to mandatory revocation
provision after he was found to have failed
three drugs tests in one year, even though
Supreme Court had held that different
mandatory revocation provision was unconstitutional in as-applied challenge, where
Supreme Court’s holding applied to actions
that constituted federal offenses and involved penalty that resembled criminal
punishment for new offense without any
trial rights, rather than sanction for
breach of court’s trust, whereas defendant’s failure to provide urine samples did
not constitute federal offense, and provision applicable to him did not strip court of
its discretion to decide for how long defendant should be imprisoned. 18 U.S.C.A.
§ 3583(g).
5. Sentencing and Punishment O2038
Sentencing court has broad discretion
to impose revocation sentence up to statutory maximum.
6. Criminal Law O1134.81
Court of Appeals will affirm revocation sentence so long as it is within prescribed statutory range and is not plainly
unreasonable.
7. Criminal Law O1134.81
In reviewing revocation sentence,
Court of Appeals must determine whether
sentence is unreasonable at all, procedurally or substantively, and if it is not, it will
affirm; if it is unreasonable, it must determine whether it is plainly so.
8. Sentencing and Punishment O2033,
2038
Defendant’s
above-Guidelines
36month revocation sentence was not plainly
unreasonable, where sentence reflected his
repeated violations of supervised release,
sentence was within statutory term, and
district court explained in its colloquy why
relevant statutory sentencing factors, including deterrence, public safety, and

criminal history, all weighed in favor of its
revocation
sentence.
18
U.S.C.A.
§ 3553(a).
9. Sentencing and Punishment O2030
Revocation sentence is procedurally
reasonable if district court adequately explains chosen sentence after considering
Sentencing Guidelines’ nonbinding policy
statements and applicable statutory sentencing factors.
10. Sentencing and Punishment O2033
Revocation sentence is substantively
reasonable if, in light of totality of circumstances, court states appropriate basis for
concluding that defendant should receive
sentence imposed.
West Codenotes
Recognized as Unconstitutional
18 U.S.C.A. § 3583(k)

Appeal from the United States District
Court for the Eastern District of Virginia,
at Norfolk. Rebecca Beach Smith, Senior
District Judge. (2:05-cr-00084-RBS-TEM1)
Geremy C. Kamens, Federal Public Defender, Patrick L. Bryant, Appellate Attorney, Alexandria, Virginia, Wilfredo Bonilla,
Jr., Assistant Federal Public Defender,
OFFICE OF THE FEDERAL PUBLIC
DEFENDER, Norfolk, Virginia, for Appellant. G. Zachary Terwilliger, United
States Attorney, Alexandria, Virginia, Alan
M. Salsbury, Assistant United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Norfolk, Virginia,
for Appellee.
Before DIAZ, FLOYD, and RUSHING,
Circuit Judges.

App. 2a

U.S. v. COSTON
Cite as 964 F.3d 289 (4th Cir. 2020)

Affirmed by published opinion. Judge
FLOYD wrote the opinion in which Judge
DIAZ and Judge RUSHING joined.
FLOYD, Circuit Judge:
During his third chance on supervised
release, Defendant-Appellant Calvin Teko
Coston failed his third drug test in a oneyear period. That slip-up triggered a revocation provision, 18 U.S.C. § 3583(g), that
restricted the district court’s discretion to
continue his supervised release. Moreover,
presented with new supervised release violations and previous violations for which it
had continued disposition, the district
court sentenced him to an above-Guidelines revocation sentence of 36 months’
imprisonment.
After Coston’s sentencing, the Supreme
Court held that a different mandatory revocation provision, 18 U.S.C. § 3583(k), was
unconstitutional in an as-applied challenge.
See United States v. Haymond, ––– U.S.
––––, 139 S. Ct. 2369, 2373, 204 L.Ed.2d
897 (2019) (Breyer, J., concurring in the
judgment). Relying on Haymond, Coston
appeals the revocation of his supervised
release, arguing that 18 U.S.C. § 3583(g)
similarly violates his Fifth and Sixth
Amendment rights. Coston also asserts
that his prison sentence is plainly unreasonable. For the following reasons, we hold
that any constitutional error is not plain at
the time of this appeal and affirm Coston’s
sentence.
I.
In 2006, Coston pleaded guilty to one
count of possession of cocaine base with
intent to distribute and one count of firearm possession in furtherance of a drug
trafficking offense. He was sentenced to
235 months’ aggregate imprisonment, but
successfully moved to reduce his sentence
on the drug charge, shaving 55 months off
his sentence. Coston was also sentenced to

291

two 5-year terms of supervised release, to
be served concurrently.
Coston began supervised release in November 2014. Although Coston was admitted to community college, he asserts that
he had transportation difficulties impacting
both his education and employment. Suffering from a drug addiction, Coston
missed urine screenings and tested positive for marijuana. In April 2015, he was
pulled over by police, but he did not immediately stop his car. He states that he kept
driving to find a better-lit location due to a
recent police shooting. Once pulled over,
the police found marijuana in the car. Coston was convicted for eluding police, driving on a suspended license and expired
registration, and marijuana possession. He
was sentenced to 6 months in jail. Financially strapped and unemployed, Coston
also began buying items on Craigslist with
counterfeit currency, which he asserts he
received unwittingly. Coston was convicted
for obtaining money by false pretenses and
forging bank notes, and he was sentenced
to 5 years’ imprisonment, with 4 years and
6 months suspended, as well as supervised
probation.
In 2016, Coston’s federal probation officer petitioned to revoke his supervised release, alleging that he (1) committed a
crime (referring to both recent state criminal cases); (2) failed to follow instructions,
including by failing to appear for urine
screenings; (3) failed to notify the probation officer of a change in residence; and
(4) possessed marijuana. At his January
2017 revocation hearing, Coston admitted
to each of these violations. The advisory
Guidelines range was 18 to 24 months’
imprisonment. After hearing Coston’s mitigation, including both that he had not been
eligible for the most in-depth drug treatment program in the Bureau of Prisons
(BOP) because of his firearm conviction
and that he had not been able to enter any

App. 3a

292

964 FEDERAL REPORTER, 3d SERIES

treatment programs while in state custody,
the district court sentenced him at the low
end, to 18 months in prison. The district
court also recommended to the BOP that
Coston learn a vocational skill, receive a
medical evaluation, and participate in drug
treatment. After imprisonment, he would
go back on supervised release to serve the
remainder of his original 5-year term: 42
months of supervised release.
That second 42-month term of supervised release began in March 2018. Again,
Coston started off on the right foot, gaining employment with his new welding
skills. However, by June 2018, probation
alleged new violations: that Coston (1)
failed to complete his drug treatment program; (2) failed to report for three drug
tests; (3) failed to timely notify his probation officer of an arrest;1 (4) twice failed to
report to his reentry program; (5) possessed marijuana and cocaine, as determined by a positive drug test; and (6)
failed to register with local police as a
convicted felon. By the time of his hearing,
Coston had registered with local police,
which the district court ‘‘accept[ed].’’ J.A.
61. Coston admitted to each of the other
violations, but not to possession of cocaine—only marijuana.

J.A. 81–82.
During this third chance to successfully
complete supervised release, Coston suffered serious traumatic events: his wife
had a heart attack, requiring open-heart
surgery, and his stepson was shot. As Coston explains it, he returned to marijuana
to cope with these events. In October and
November of 2018, his probation officer
filed new addendums, alleging that Coston:
(1) possessed marijuana, as determined by
two positive drug tests, and as admitted;
(2) missed two urine screens; and (3)
missed two monthly reports.

What I would suggest we do is that
these violations are of record, they are
stipulated to, the Court has accepted
them and found that he is in violation,

In March 2019, the district court held a
hearing regarding both these new violations and the prior violations for which
disposition had been suspended. Coston
stipulated to the three new violations, including the possession violation. Typically,
a judge has broad discretion as to whether
to terminate, continue, revoke, or otherwise modify supervised release. See generally18 U.S.C. § 3583(e). However, Coston’s
stipulation to a third positive drug test in a
one-year period triggered 18 U.S.C.
§ 3583(g), the ‘‘Mandatory Revocation for
Possession of Controlled Substance or
Firearm or for Refusal to Comply With
Drug Testing’’ provision. Subsection
3583(g) provides that the court ‘‘shall re-

Coston had been arrested for domestic as-

sault and battery, which was nolle prossed.

In mitigation, Coston testified as to various circumstances that had undermined
his ability to comply with drug treatment
and attend reentry meetings. He said that
it had been a ‘‘wake-up call,’’ J.A. 77, and
asked for a second chance. The district
court found that Coston violated his supervised release, but it did not revoke his
supervision; instead, it continued disposition on these violations:

1.

but that we continue disposition on these
violations pending any further violations
and give Mr. Coston the chance to say
what he means and mean what he says,
and for him to know that with the Court,
actions speak louder than words. He just
under oath said that he was going to
follow all the instructions and follow the
supervised release TTTT
If he truly wants an opportunity to
avoid further incarceration and get his
life back on track, now is his opportunity
to do so.

App. 4a

U.S. v. COSTON
Cite as 964 F.3d 289 (4th Cir. 2020)

voke the term of supervised release and
require the defendant to serve a term of
imprisonment not to exceed the maximum
term of imprisonment authorized under
subsection (e)(3),’’ if the defendant:
(1) possesses a controlled substance in
violation of the condition set forth in
subsection (d);
(2) possesses a firearm, as such term is
defined in section 921 of this title, in
violation of Federal law, or otherwise
violates a condition of supervised release
prohibiting the defendant from possessing a firearm;
(3) refuses to comply with drug testing
imposed as a condition of supervised
release; or
(4) as a part of drug testing, tests positive for illegal controlled substances
more than 3 times over the course of 1
year.
18 U.S.C. § 3583(g) (emphasis added). The
district court correctly acknowledged at
the outset of Coston’s hearing that
§ 3583(g)(4) would apply based on his
three failed drug tests.
Importantly, there is one statutory exception to mandatory revocation when a
defendant has failed drug tests. As argued
by Coston at the hearing, the court could
have ordered inpatient drug treatment
rather than revoke Coston’s supervised release. See 18 U.S.C. § 3583(d) (‘‘The court
shall consider whether the availability of
appropriate substance abuse treatment
programs TTT warrants an exception in
accordance with [U.S.S.G.] guidelines from
the rule of section 3583(g) when considering any action against a defendant who
fails a drug test.’’); see also U.S.S.G.
§ 7B1.4 cmt. application n.6. Coston explained through counsel that he had been
using drugs since he was eleven years old,
had never received inpatient treatment,
and really wanted the help. But the court
rejected inpatient treatment as a possibili-

293

ty, explaining that Coston had ‘‘squandered his opportunities,’’ and that he was
not ‘‘entitled to go to the [chosen] inpatient
program when the system has programs
just as good or better.’’ J.A. 107.
The government asked for a Guidelines
range sentence of 18 to 24 months’ imprisonment; defense counsel requested at least
a downward variance, arguing that these
newest violations were much less serious
than his prior violations. Defense counsel
also explained the mitigating circumstances of Coston’s familial traumas. Expressing that ‘‘[t]here are always going to
be human problems,’’ the court ‘‘assume[d]
all of it is true, to short-circuit some of
this.’’ J.A. 106–07.
In a lengthy colloquy, the district court
explained why Coston’s criminal history,
the need for deterrence, and public safety
all weighed in favor of this sentence. The
district court noted in part Coston’s ‘‘long
history with [the] Court dating back some
almost 15 years,’’ and that it had ‘‘been
nothing but continuous violations since
[Coston] ha[d] been on supervised release.’’ J.A. 111–12. It considered deterrence to be ‘‘one of the most important
factors’’ in Coston’s case, because he
‘‘ha[dn’t] been deterred yet’’—even by his
prior 18-month revocation sentence. J.A.
115. It also found that if Coston could not
fix his drug problem, he would be a ‘‘danger to the public.’’ J.A. 115. It ordered
further drug treatment, while also averring that it would ‘‘look at the need to
avoid unwarranted sentencing disparity
and all the guideline statements.’’ J.A. 116.
Additionally, the district court noted that
‘‘it is rare that somebody comes before the
Court three times on supervised release. It
is not a normal happening.’’ J.A. 116. In
all, the district court was ‘‘not convinced
that the advisory guidelines are sufficient,
but not greater than necessary to put [Coston] back, hopefully, on some kind of

App. 5a

294

964 FEDERAL REPORTER, 3d SERIES

straight and narrow path TTTT’’ J.A. 116–
17.
Ultimately, the district court revoked
Coston’s supervised release and sentenced
him to an above-guidelines range sentence
of 36 months’ imprisonment, which was
still within his original authorized sentence. Finding that Coston had ‘‘not shown
that he is a good candidate for supervised
release,’’ J.A. 117, the district court did not
impose an additional term of supervised
release.
Coston timely appealed, arguing for the
first time and based on an intervening
Supreme Court case that the revocation
provision applicable in his case, § 3583(g),
is unconstitutional under the Fifth and
Sixth Amendments. Coston additionally asserts that his sentence is plainly unreasonable because the district court over-emphasized deterrence, failed to adequately
consider mitigation, and failed to consider
resulting sentencing disparities for marijuana offenses.
II.
[1] We first consider Coston’s argument that § 3583(g) facially violates the
Due Process Clause of the Fifth Amendment and the right to a jury under the
Sixth Amendment, because it mandates
revocation based on a finding of fact made
by a judge, which necessarily results in a
carceral sentence of at least one day in
prison. We review the constitutionality of a
statute de novo. See United States v. Ide,
624 F.3d 666, 668 (4th Cir. 2010). Because
Coston did not preserve a constitutional
challenge to § 3583(g), however, we review
his claim for plain error. See United States
v. Webb, 738 F.3d 638, 640–41 (4th Cir.
2013); see also United States v. Badgett,
957 F.3d 536, 539 (5th Cir. 2020) (reviewing a post-Haymond, unpreserved constitutional challenge to § 3583(g) for plain
error).

[2] Within plain error review, Coston
must establish (1) an error, (2) that was
plain, and (3) that affected his substantial
rights. See United States v. Olano, 507
U.S. 725, 732, 113 S.Ct. 1770, 123 L.Ed.2d
508 (1993). If he satisfies those factors, we
may exercise our discretion to correct the
error if it ‘‘seriously affect[s] the fairness,
integrity or public reputation of judicial
proceedings.’’ Id. (alteration in original)
(quoting United States v. Young, 470 U.S.
1, 15, 105 S.Ct. 1038, 84 L.Ed.2d 1 (1985)).
For the reasons that follow, we need not
reach whether § 3583(g) is unconstitutional, and its application therefore erroneous,
because any error is not plain.
[3, 4] An error is plain if it is ‘‘clear’’ or
‘‘obvious’’ by the time of appeal, either
because of ‘‘settled law of the Supreme
Court or this circuit’’ or, ‘‘[i]n the absence
of such authority, decisions by other circuit
courts of appeals.’’ See United States v.
Promise, 255 F.3d 150, 160 (4th Cir. 2001)
(quoting United States v. Neal, 101 F.3d
993, 998 (4th Cir. 1996)). Coston contends
that the recent Supreme Court decision
Haymond makes plain the unconstitutionality of § 3583(g). We disagree. While the
plurality may have reached a result perhaps more favorable to Coston, the Supreme Court’s 4-1-4 split leaves us with a
controlling factor-based test that does not
clearly capture § 3583(g).
In Haymond, five Supreme Court Justices held that a different mandatory revocation provision, § 3583(k), violates the
Fifth and Sixth Amendments. See139 S.
Ct. at 2373 (plurality opinion); id. at 2386
(Breyer, J., concurring in the judgment).
Under § 3583(k),
if a judge finds by a preponderance of
the evidence that a defendant on supervised release committed one of several
enumerated offenses, including the possession of child pornography, the judge

App. 6a

U.S. v. COSTON
Cite as 964 F.3d 289 (4th Cir. 2020)

must impose an additional prison term
of at least five years and up to life
without regard to the length of the prison term authorized for the defendant’s
initial crime of conviction.
See id. at 2374 (plurality opinion). Notably,
although § 3583(k) allows for a revocation
sentence to exceed a defendant’s sentence
in the underlying criminal conviction, that
was not the case for Haymond. Still, Haymond ‘‘faced a minimum of five years in
prison instead of as little as none.’’ Id. at
2378 (plurality opinion).
On appeal, Coston leans heavily on the
logic from Justice Gorsuch’s plurality opinion to demonstrate § 3583(g)’s unconstitutionality. The Haymond plurality emphasized the ‘‘structural difference’’ between
traditional parole, which operated as a
form of conditional liberty, and supervised
release, which was introduced ‘‘only to encourage rehabilitation after the completion
of [a defendant’s] prison term.’’ Id. at 2382.
According to the plurality, that difference
‘‘bears constitutional consequences’’—
namely, the inability to circumvent the historically significant jury right. See id. To
the plurality, this is also an obvious outgrowth of the Apprendi line of cases,
which has held that any element that necessarily increases the minimum or maximum prison sentence must be proven to a
jury beyond a reasonable doubt. See Apprendi v. New Jersey, 530 U.S. 466, 120
S.Ct. 2348, 147 L.Ed.2d 435 (2000); see
also Alleyne v. United States, 570 U.S. 99,
133 S.Ct. 2151, 186 L.Ed.2d 314 (2013).
Although the plurality expressly did not
reach § 3583(g), see Haymond, 139 S. Ct.
at 2382 n.7, Coston argues that § 3583(g)
similarly unconstitutionally avoids a jury
for a finding that necessarily results in at
least one day in prison.
However, Justice Breyer’s concurrence
presented the narrowest grounds for the
Court’s holding and therefore controls. See

295

Marks v. United States, 430 U.S. 188, 193,
97 S.Ct. 990, 51 L.Ed.2d 260 (1977); A.T.
Massey Coal Co. v. Massanari, 305 F.3d
226, 236 (4th Cir. 2002); see also Badgett,
957 F.3d at 540 (applying the Marks rule
to Haymond and holding that Justice
Breyer’s concurrence controls). And that
concurrence departed from the plurality in
two key ways: it found that supervised
release is not so different from traditional
parole, and that Apprendi and Alleyne do
not apply in the supervised release context. See Haymond, 139 S. Ct. at 2385
(Breyer, J., concurring in the judgment).
Rather, Justice Breyer held that
§ 3583(k) is unconstitutional because the
five-year mandatory minimum for enumerated violations resembles criminal punishment for a new offense without any trial
rights, rather than a sanction for breach of
the court’s trust. See Haymond, 139 S. Ct.
at 2386 (Breyer, J., concurring in the judgment) (noting that § 3583(k) is ‘‘difficult to
reconcile’’ with the principle that revocation sentences are ‘‘first and foremost considered sanctions for the defendant’s
‘breach of trust’—his ‘failure to follow the
court-imposed conditions’ that followed his
initial conviction—not ‘for the particular
conduct triggering the revocation as if that
conduct were being sentenced as new federal criminal conduct’ ’’ (quoting U.S.S.G.
ch. 7, pt. A, intro. cmt. 3(b) (Nov. 2018)). In
so holding, Justice Breyer identified three
aspects of § 3583(k) that appear to punish
a crime rather than sanction breach of
trust:
First, § 3583(k) applies only when a
defendant commits a discrete set of federal criminal offenses specified in the
statute. Second, § 3583(k) takes away
the judge’s discretion to decide whether
violation of a condition of supervised
release should result in imprisonment
and for how long. Third, § 3583(k) limits
the judge’s discretion in a particular

App. 7a

296

964 FEDERAL REPORTER, 3d SERIES

manner: by imposing a mandatory minimum term of imprisonment of ‘‘not less
than 5 years’’ upon a judge’s finding that
a defendant has ‘‘commit[ted] any’’ listed
‘‘criminal offense.’’
Id. (alteration in original). These three factors control our analysis of § 3583(g).
Under these factors, § 3583(g) is an
imperfect fit. Take the first factor, that it
applies to ‘‘a discrete set of federal criminal offenses.’’ Id. On the one hand,
§ 3583(g) applies when a defendant commits certain federal offenses, like possession of a controlled substance, or of a
‘‘firearm TTT in violation of Federal law.’’
See18 U.S.C. § 3583(g)(1)–(2). But refusing
to comply with urine samples, one of the
§ 3583(g) triggers, is not a federal crime.
And, unlike § 3583(k), § 3583(g) does not
cross-reference federal criminal statutes.
To be sure, applying the second factor, in
some cases § 3583(g), like § 3583(k), ‘‘takes
away the judge’s discretion to decide
whether a violation TTT should result in
imprisonment.’’ See Haymond, 139 S. Ct.
at 2386 (Breyer, J., concurring in the judgment). It mandates imprisonment of at
least one day in cases where the exception
to mandatory imprisonment in § 3583(d)
does not apply. But, unlike § 3583(k), it
does not strip the court of its discretion to
decide ‘‘for how long’’ the defendant should
be imprisoned. See id. Moreover, as to the
third factor, it does not ‘‘limit the judge’s
discretion in a particular manner’’ that results in the imposition of a ‘‘mandatory
minimum term of imprisonment of ‘not less
than 5 years.’ ’’ Id. The only particular
manner by which § 3583(g) limits the
judge’s discretion is by mandating revocation in a subset of cases, and the judge
retains broad discretion to craft a sentence
of one day or more. Further, unlike
§ 3583(k), any sentence imposed under
§ 3583(g) is ‘‘limited by the severity of the
original crime of conviction, not the conduct that results in revocation.’’ Haymond,

139 S. Ct. at 2386 (Breyer, J., concurring
in the judgment).
Overall, § 3583(g) likely does not meet
Justice Breyer’s controlling test. And given that no majority of the Supreme Court
endorsed the application of Alleyne in the
supervised release context, we remain
bound by this Court’s prior decision that it
does not. See UnitedStates v. Ward, 770
F.3d 1090, 1099 (4th Cir. 2014) (holding
that Alleyne does not apply to supervised
release revocation proceedings); see also
United States v. Mooney, 776 F. App’x
171, 171 (4th Cir. 2019) (holding post-Haymond that ‘‘Ward remains good law’’). For
these reasons, we hold that any error is
not plain, and affirm the revocation of
Coston’s
supervised
release
under
§ 3583(g).
III.
[5–7] Having affirmed the revocation
of Coston’s supervised release, we turn
now to his sentence. A sentencing court
has ‘‘broad discretion’’ to impose a revocation sentence ‘‘up to the statutory maximum.’ ’’ United States v. Crudup, 461 F.3d
433, 439 (4th Cir. 2006) (quoting United
States v. Lewis, 424 F.3d 239, 244 (2d Cir.
2005)). We affirm a revocation sentence so
long as it is ‘‘within the prescribed statutory range and is not plainly unreasonable.’’
Id. at 437–40. First, we determine whether
the sentence is ‘‘unreasonable at all,’’ procedurally or substantively. United States v.
Thompson, 595 F.3d 544, 546 (4th Cir.
2010). If it is not, we affirm; if it is unreasonable, we determine whether it is plainly
so. See United States v. Slappy, 872 F.3d
202, 206–07 (4th Cir. 2017).
[8–10] Coston’s sentence was not plainly unreasonable because it reflected his
repeated violations of supervised release.
Although above the Guidelines range, Coston’s sentence was within the statutory

App. 8a

U.S. v. COSTON
Cite as 964 F.3d 289 (4th Cir. 2020)

term. Moreover, it was not procedurally or
substantively unreasonable. ‘‘A revocation
sentence is procedurally reasonable if the
district court adequately explains the chosen sentence after considering the Sentencing Guidelines’ nonbinding Chapter
Seven policy statements and the applicable
18 U.S.C. § 3553(a) factors.’’ Slappy, 872
F.3d at 207 (4th Cir. 2017) (footnote omitted). ‘‘A revocation sentence is substantively reasonable if, in light of the totality of
the circumstances, the court states an appropriate basis for concluding ‘that the
defendant should receive the sentence imposed.’ ’’ United States v. Moore, 775 F.
App’x 94, 95 (4th Cir. 2019) (quoting United States v. Gibbs, 897 F.3d 199, 204 (4th
Cir. 2018)).
Here, the district court explained in its
colloquy why relevant § 3553(a) sentencing
factors, including deterrence, public safety,
and criminal history, all weighed in favor
of its revocation sentence. Based on its
fifteen years’ experience with Coston, the
district court deemed him not to be a
‘‘good candidate’’ for supervised release
and sentenced him to a longer imprisonment term of 36-months’ imprisonment,
with no additional supervised release term.
In doing so, the district court did not, as
Coston asserts, unreasonably overemphasize deterrence. In part, Coston argues
that his newest violations were less serious
than his prior violations, and that consideration of the same sentencing factors therefore should have resulted in a lighter sentence. Coston has overlooked the fact that
the court was facing not just Coston’s new
violations (possession of marijuana, missed
urine screens, and missed monthly reports), but also his prior violations, including another marijuana possession violation
and his failure to attend reentry programming. Overall, as the district court viewed
it, 18 months’ imprisonment for Coston’s
first round of supervised release violations

297

had not been enough to deter him, and he
had been unable to keep his promise to the
court after his second round of violations.
Coston also believes that the district
court failed to adequately consider his mitigating circumstances, deciding instead to
‘‘short-circuit’’ those arguments. After
hearing about Coston’s recent familial
traumas, the district court explained why
those arguments had, after repeated violations, begun to fall flat. Reading the record
as a whole, we understand the district
court to mean that it was willing to accept
everything Coston was saying as true, and
yet was more concerned with its prior
inability to deter Coston from future violations.
Finally, Coston asserts that the court
unreasonably failed to consider resulting
sentencing disparities for marijuana offenses. As he points out, some of our district courts have noted disparities in both
prosecution and sentencing for marijuana
offenses, arising in part from a patchwork
of state laws and an overlay of federal
criminalization. See United States v.
Guess, 216 F. Supp. 3d 689, 695–97 (E.D.
Va. 2016); see also United States v. Dayi,
980 F. Supp. 2d 682, 685–87 (D. Md. 2013).
Although a three-year prison term may
well be out of step with what sentencing
courts are doing in marijuana possession
cases, the problem for Coston is that his
prison term was not for marijuana possession—it was for violating supervised release by possessing marijuana, in addition
to other violations. See Guess, 216 F. Supp.
3d at 697–99 (having summarized marijuana sentencing disparities, explaining that it
was sentencing defendant for violations of
supervised release conditions, which may
include ‘‘conditions that do not apply to the
general population’’). As discussed above in
Part II, if Coston’s sentence under the
supervised release scheme was constitutional, it was only so because he was being

App. 9a

298

964 FEDERAL REPORTER, 3d SERIES

punished for breaching the court’s trust,
and not for a crime. Therefore, the district
court did not act unreasonably by failing to
factor sentencing disparities with marijuana possession cases into Coston’s revocation sentence.

Holdings: The Court of Appeals, Wiener,
Circuit Judge, held that:

Given the district court’s care in explaining Coston’s sentence, and especially considering that court’s historic inability to
prevent Coston from repeatedly violating
supervised release conditions, we hold that
his sentence is not unreasonable. The district court’s judgment is

(2) teacher’s actions in filing grievance and
discrimination charge were activities
protected from retaliation;

AFFIRMED.

(1) teacher’s impairment following her lap
band surgery could not serve as basis
for her ‘‘regarded as’’ disability discrimination claim;

(3) one-week temporal proximity between
teacher’s filing grievance and being removed from coaching basketball was
sufficient evidence of causality to establish prima facie case of retaliation;
(4) nine-month period between filing of
discrimination charge and decision to
switch her from coaching track to
coaching tennis was insufficient evidence of causality to establish retaliation; and

,
Tanya LYONS, Plaintiff-Appellant
v.
KATY INDEPENDENT SCHOOL
DISTRICT, DefendantAppellee

(5) decision to remove teacher from coaching basketball because she did not like
coaching basketball and did not want to
do so was not pretext for retaliation.
Affirmed.
1. Federal Courts O3604(4)

No. 19-20293

Court of Appeals reviews summary
judgment de novo, applying same standards used by district court. Fed. R. Civ.
P. 56(a).

United States Court of Appeals,
Fifth Circuit.
FILED June 29, 2020
Background: Former teacher brought action under Americans With Disabilities Act
(ADA) alleging that school district discriminated and retaliated against her on basis
of perceived disability following surgery by
reassigning her from teaching physical education to serving as in-school suspension
teacher. The United States District Court
for the Southern District of Texas, Alfred
H. Bennett, J., entered summary judgment in district’s favor, and teacher appealed.

2. Civil Rights O1218(6)
Teacher’s impairment following her
lap band surgery was transitory and minor, and thus could not serve as basis for
her ‘‘regarded as’’ disability discrimination
claim under ADA against school district,
where teacher was out of work for two
weeks and with restrictions for six to eight
weeks, and there was no evidence that
actual or expected duration of any impairment related to lap band procedure was
more than six months. Americans with

App. 10a

